         
 
 
 
 
 
 
 
 
 
 
 
 
 
                                 
                                    The Center for Folklife
 
                                    and Cultural Heritage
                                    Needs to Improve Its
 
 

                                    Financial Management
 
     
 
                                    Operations




                                    Office of the Inspector General

                                    Accounting Information Systems
                                     at the Center for Folklife and
                                     Cultural Heritage, Report Number
                                     A-11-09
                                    September 28, 2012
         Smithsonian Institution
         Office of the Inspector General


                                The Center for Folklife and Cultural Heritage
In Brief                        Needs to Improve Its Financial Management
                                Operations, A-11-09, September 28, 2012
                                                                                                        

Why We Did This Audit           What We Found

We conducted this audit to      We found that the Center for Folklife and Cultural Heritage
assess whether the              (CFCH) needs to increase oversight of the accounting
accounting information          information system that Smithsonian Folkways Recordings
systems (1) reconcile to        (Folkways) uses to capture sales, inventory, accounts receivable
the Smithsonian’s               data, and other financial information. We also determined that
Enterprise Resource             CFCH needs to improve management of the Festival Marketplace
Planning system, (2)            point of sale system, which is used to manage Festival
provide management an           Marketplace operations. In addition, we found that CFCH needs
accurate view of Center for     to improve segregation of duties and cross-train staff to perform
Folklife and Cultural           key financial tasks.
Heritage’s (CFCH) business
activities, and (3) can be      CFCH’s ability to make sound business decisions is impaired
improved to increase            because the inventory and accounts receivable records are
efficiencies.                   inaccurate. In addition, because information from these
                                subsidiary ledgers is transferred to the Enterprise Resource
Background                      Planning (ERP) system, the Smithsonian’s official accounting
                                records, specifically inventory and accounts receivable, are also
CFCH is a research and          inaccurate.
educational unit of the
Smithsonian Institution         What We Recommended
dedicated to promoting the
understanding and               We made eight recommendations intended to ensure that
continuity of diverse,          Folkways’ accounting records reconcile to ERP and to provide
contemporary grassroots         management an accurate view of its profitability.
cultures in the United
States and around the           We made four recommendations directed at improving internal
world. CFCH’s primary           controls over Festival Marketplace activities.
activities are the
Smithsonian Folklife            Lastly, we made five recommendations to improve management
Festival (Festival) and         over financial activities, as well as to strengthen CFCH’s user
Smithsonian Folkways            access controls over systems that accept payment cards.
Recordings (Folkways).
The Festival is an annual       Management concurred with our findings and recommendations
event held outdoors on the      and has proposed or taken corrective actions that will address
National Mall. Folkways         the recommendations. Based on corrective actions taken by
has a collection of over        management, we closed five recommendations as of the date of
43,000 recordings that are      this report.
available for purchase. To
manage these activities,
CFCH utilizes various
accounting information           For additional information or a copy of the full report, contact the
                                 Office of the Inspector General at (202) 633-7050 or visit
systems for its operations.
                                 http://www.si.edu/oig.
o          Smithsonian Institution 	

           Office of the Inspector General
                                                                                      Memo



  Date     September 28, 2012

    To 	   Daniel Sheehy, Director, Center for Folklife and Cultural Heritage 

           Andrew Zino, Comptroller 

           Deron Burba, Chief Information Officer 


    cc 	 Albert Horvath , Under Secretary for Finance and Administration/
           Chief Financial Officer
         Richard Kurin, Under Secretary for History, Art, and Culture
         Patricia Bartlett, Chief of Staff, Office of the Secretary
         Judith Leonard, General Counsel
         John Clark, Budget Analyst, Office of Planning, Management and
           Budget
         Stone Kelly, Program and Budget Analyst, Office of Planning,
           Management and Budget

 From      Scott S. Dahl, Inspector General   ~
Subject 	 The Center for Folklife and Cultural Heritage Needs to Improve Its Financial
          Management Operations, A-U-09

           Attached please find a copy of our final report titled The Center for Folklife
           and Cultural Heritage Needs to Improve Its Financial Management
           Operations.

           We made eight recommendations to ensure that the Smithsonian Folkways
           Recordings ' accounting records reconcile to the Enterprise Resource Planning
           system and to provide management an accurate view of its profitability . We
           made four recommendations directed at improving internal controls over
           Festival Marketplace activities. Lastly, we made five recommendations to
           improve management over financial activities, as well as to strengthen the
           Center for Folklife and Cultural Heritage's user access controls over systems
           that accept payment cards. Management concurred with our findings and
           recommendations and has proposed or taken corrective actions that will
           address the recommendations.

           We appreciate the courtesy and cooperation of the staff of the Center for
           Folklife and Cultural Heritage and the Office of the Comptroller during this
           audit.

           Please call Michael Sinko, Assistant Inspector General for Audits, or Joan
           Mockeridge, Supervisory Auditor, on 202 .633 .7050 if you have any
           questions.


           MRCS24
           PO Box370 12 

           Washingto n DC 20013·07 12 

           202 .633.7050 Telepho ne 

           202 .633· 7079 Fax 

SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

This report presents the results of our audit of accounting information systems at
the Center for Folklife and Cultural Heritage (CFCH). Our objectives were to assess
whether the accounting information systems (1) reconcile to the Smithsonian’s
Enterprise Resource Planning (ERP) System, (2) provide management an accurate
view of CFCH’s business activities, and (3) can be improved to increase efficiencies.
We describe in detail our audit scope and methodology in Appendix A.

CFCH’s primary activities are the Smithsonian Folklife Festival (Festival) and
Smithsonian Folkways Recordings (Folkways). The Festival is an annual event held
outdoors on the National Mall. Folkways manages a collection of over 43,000
recordings that are available for purchase. To manage these activities, CFCH utilizes
various accounting information systems for its Festival and Folkways operations.
This audit focused on the following systems:

      Participant Tracking System – tracks Festival participants’ travel,
       honorarium, and miscellaneous expenses.
      Marketplace Point-of-Sale System (POS) – tracks inventories, assigns bar
       codes, tracks sales, and creates vendor invoices at the annual Festival.
      NetSuite – financial system Folkways uses to manage its record label.
      Record Maestro – contains royaltor payment information.

RESULTS IN BRIEF

We found that the Center for Folklife and Cultural Heritage (CFCH) needs to
increase oversight of the accounting information system that Smithsonian Folkways
Recordings (Folkways) uses to capture sales, inventory, accounts receivable data,
and other financial information. Specifically we found that:

      CFCH was not effectively maintaining subsidiary records for Folkways.
      Folkways’ inventory management and accounts receivable, does not reconcile
       to ERP. For example, we identified a variance of approximately $349,000
       between Folkways’ and the Smithsonian’s ERP inventory records.
      Neither Folkways nor the Office of the Comptroller (OC) could resolve a
       difference of $127,000 between Folkways’ accounts receivable records and
       ERP.

CFCH’s ability to make sound business decisions is impaired because the inventory
and accounts receivable records are inaccurate. In addition, because information
from these subsidiary ledgers is transferred to ERP, the Smithsonian’s official
accounting records, specifically inventory and accounts receivable, are also
inaccurate.

We also determined that CFCH needs to improve management of the Festival
Marketplace POS system, which is used to manage Marketplace operations. For
example:
SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL


      CFCH needs to increase oversight of the Festival’s POS system, as it relates
       to vendor payments, recording of inventory, and daily deposit of Marketplace
       cash proceeds.
      CFCH was not following Smithsonian password policies to access the POS
       system.

Lastly, we found that CFCH needs to improve segregation of duties and cross-train
staff to perform key financial tasks.

We made eight recommendations intended to ensure that Folkways’ accounting
records reconcile to ERP and to provide management an accurate view of its
profitability. Implementing these recommendations will improve the accuracy and
management of inventory and accounts receivable records.

We made four recommendations directed at improving internal controls over
Festival Marketplace activities. Once implemented, these recommendations will help
ensure improved controls over the Marketplace inventory and daily cash deposits.

Lastly, we made five recommendations to improve management over financial
activities, as well as to strengthen CFCH’s user access controls over systems that
accept payment cards.

Management concurred with our findings and recommendations and has proposed
or taken corrective actions that will address the recommendations. Based on
corrective actions already taken by management, we closed five recommendations
as of the date of this report. Please refer to Appendix B for management’s complete
response. Please refer to Appendix C for a Schedule of Recommendation
Completion Dates.

BACKGROUND

CFCH is a research and educational unit of the Smithsonian Institution dedicated to
promoting the understanding and continuity of diverse, contemporary grassroots
cultures in the United States and around the world. CFCH’s primary activities are
the Festival and Smithsonian Folkways Recordings. CFCH produces exhibitions,
documentary films and videos, symposia, publications, and educational materials.
CFCH also conducts ethnographic and cultural heritage policy oriented research,
maintains the Ralph Rinzler Folklife Archives and Collections, and provides
educational and research opportunities through fellowships, internships, and
training programs. CFCH’s activities are funded by:

      federal appropriations;
      Smithsonian trust funds;
      contracts and agreements with national, state, and local governments;
      foundation grants;
      gifts from individuals and corporations;
      income from the Festival; and
      Folkways product sales.


                                         2
SMITHSONIAN INSTITUTION                                   OFFICE OF THE INSPECTOR GENERAL


The Smithsonian Folklife Festival

The Festival is an annual event held outdoors on
the National Mall. CFCH has been producing the
festival since 1967. CFCH invites musicians,
artists, performers, craftspeople, workers, cooks,
storytellers, and others to the National Mall to
display their talents in a venue that is free to the
public. Each year, Festival organizers diversify the
programs by featuring a nation, region, and state
or theme. Since its inception, the Festival has
featured programs from more than 90 countries.
The Festival supports funding for CFCH through
various profit generating activities such as
Marketplace sales of vendor crafts and food
concessions that are related to the particular year’s   The Smithsonian Folklife Festival is an
programs. In 2011, the Festival grossed                 annual two week event on the National
                                                        Mall.
approximately $590,000 in revenue from
Marketplace and concession sales. After paying Festival related expenses, such as
cost of goods sold and salaries, the Festival netted approximately $137,000. These
funds are used to support CFCH’s department and programs.

The Smithsonian Folkways Recordings

                                            In 1987, the Smithsonian acquired the Folkways
                                            Records & Service Company, which was founded
                                            in 1948 by Moses Asch, to ensure that the
                                            collection of approximately 2,200 folk albums
                                            would be available to future generations. The
                                            collection includes traditional, ethnic, and
                                            contemporary music from around the world;
                                            poetry, spoken word, and instructional recordings
                                            in numerous languages; and documentary
                                            recordings of individuals, communities, current
                                            events, and natural sounds. This collection has
                                            grown to include over 43,000 individual
                                            recordings that are sold primarily as compact
  In 2012, Folkways Recordings will release discs or digital downloads. Folkways distributes
  Woody at 100: The Woody Guthrie
  Centennial Collection, a commemorative    music through its website, mail order catalogue,
  collection of his work.                   and third parties such as iTunes and eMusic. In
2011, Folkways generated approximately $3,600,000 in gross revenue.

In 2009, CFCH signed a Memorandum of Understanding (MOU) to share half of
Folkways’ first $200,000 of annual net gains or losses with the Central Trust Fund.
The Central Trust Fund received approximately $100,000 in fiscal year 2011 and
$57,000 in fiscal year 2010.




                                               3
SMITHSONIAN INSTITUTION                                     OFFICE OF THE INSPECTOR GENERAL


CFCH Accounting Information Systems

CFCH uses the following four accounting information systems to manage its
financial operations. CFCH and OC staff manually enter some financial information
from these subsidiary systems into the ERP Financials system, the Smithsonian’s
official accounting records.

    Folklife Festival Accounting Information Systems

       Participant Tracking System – Folklife Festival staff (Folklife) use this Access-
       based system to track Festival participants. Folklife staff also use the system
       to generate purchase orders and payment vouchers for the Festival
       participants’ travel, honorarium, and miscellaneous expenses.

       Marketplace Point-of-Sale System (POS) – Festival Marketplace staff use the
       POS system to record inventories, assign bar codes, track sales, and create
       vendor invoices at the annual Festival. The vendor invoices are used to pay
       merchants whose products are sold at the Festival Marketplace.

    Folkways’ Accounting Information Systems

       NetSuite – Folkways staff use this web-based financial system to capture
       sales and inventory data for music merchandise and digital recordings sold
       through the Folkways website and the mail order catalogue. Staff also use
       NetSuite to record accounts receivable, royalty payments, and other financial
       data.

       Record Maestro – Record Maestro is a royalty payment management system.
       Folkways staff use the Record Maestro system to calculate royalty payments
       owed to artist royaltors1 and mechanical licensees.2 Folkways staff enter the
       royaltors and licensees into the Record Maestro system based on their
       agreements. To make royalty payments, Folkways uploads sales data from
       NetSuite and third parties such as iTunes and eMusic. Based on the uploaded
       sales data, the Record Maestro system calculates the royalties owed to artist
       royaltors and mechanical licensees.

    Smithsonian’s Official Accounting Records

       ERP – The ERP system contains financial management data used by the
       Smithsonian. Financial management consists of the following: asset and
       liability management, reporting, budget and finance, accounting, payments,
       and collections and receivables, in accordance with applicable federal
       standards.

1
  Artist royaltors are recording artists, compilers, producers, as well as companies that licensed
master recordings to Folkways. Royalties are determined by contracts with Folkways.
2
  Mechanical licensees are music publishers or composers who own the copyrights in musical
compositions embodied in sound recordings. Mechanical royalties are based on statutory rates set by
Congress.

                                                 4
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


Financial Management Roles and Responsibilities

Folkways – Folkways staff are responsible for direct supervision of all aspects of
Folkways’ financial operations including inventory management, accounts
receivable, and royalty payments. In addition, they have the primary responsibility
to perform the monthly reconciliation of accounts receivable.

Folklife – Folklife staff are responsible for the planning and the management of the
Festival. Specifically, they monitor the Festival concessionaires and administer the
Marketplace. Folklife staff are authorized to make direct payments to Festival
participants.

Office of the Comptroller (OC) – OC staff are responsible for maintaining the official
books and accounts of the Smithsonian. In addition, it provides technical guidance
of activity accounting to assure the validity of accounts and reports. OC’s Financial
Analysis and Reporting Division is responsible for verifying that the monthly
accounts receivable reconciliation is performed by the appropriate party.

Office of the Chief Information Officer (OCIO) – OCIO staff are responsible for
educating the Smithsonian community about data security responsibilities and
assisting units with implementing data security standards, as they relate to
accounting information systems. In addition, OCIO co-chairs the Payment Card
Industry (PCI) Working Group to coordinate Smithsonian payment card compliance
activities.

Smithsonian Policies and Procedures

Smithsonian Directive (SD) 301 Financial Management Accounting Practices and
Procedures communicates the Smithsonian’s accounting policies and procedures.
The directive is supported by the Financial Management Accounting Policies and
Procedures Handbook which includes the Smithsonian’s accounts receivable and
bookkeeping policies.

SD 313 Smithsonian Auxiliary Activities Handbook describes accounting policies and
procedures such as inventory control and cash management for Smithsonian
auxiliary activities.

SD 309 Merchant Accounts, Payment Cards, and the Payment Card Industry Data
Security Standard outlines various responsibilities regarding PCI compliance for
units that accept payment cards for products, services, or donations.
This directive is supported by the Payment Card Handbook which outlines
procedures that units must follow to accept payment card transactions.

SD 931 Use of Computers, Telecommunications Devices and Networks outlines
policies for all users of Smithsonian computers, telecommunications devices, and
networks, including all hardware connected to Smithsonian computers and
networks.


                                          5
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


SD 310 Financial Reporting and Risk Management Internal Controls outlines policies
and procedures for establishing, documenting, assessing, and reporting on the
financial management internal controls that are critical for safeguarding
Smithsonian assets.

RESULTS OF AUDIT

In reviewing CFCH’s accounting information systems, we found that CFCH was not
effectively maintaining reliable subsidiary records for Folkways. In addition, we
determined that CFCH could improve oversight of its Festival Marketplace activities,
such as ensuring daily deposits of cash and that all vendor products are entered
into the POS system prior to sale. We also determined that CFCH could improve
segregation of duties and succession planning for its key financial personnel. Lastly,
we determined that CFCH should strengthen user access controls over systems that
accept payment cards.

The Folkways Profit and Loss Statement is Not Reliable

CFCH needs to improve oversight of the financial management of its Folkways’
operations. During the course of our audit, we determined that neither Folkways’
inventory nor its accounts receivable records were accurate. As a result, Folkways’
profit and loss statement generated from ERP is not an accurate representation of
Folkways’ profitability. During the course of our audit, CFCH hired a firm that has
accounting experience with independent record labels. This firm has been working
with CFCH and OC to address the inventory and accounts receivable valuations.

Inventory

Folkways needs to improve management of its inventory records that are
maintained in NetSuite, a web-based accounting information system. As of
September 30, 2011, ERP reported inventory at approximately $911,000, while
NetSuite reported inventory at approximately $562,000, a variance of $349,000.
We found specific instances where inventory balances differed between NetSuite
and ERP. For example, as of September 30, 2011, ERP showed a negative balance
of approximately $400 for shirts, while NetSuite had a positive balance of
approximately $4,300. In addition, Folkways staff cannot support the unit costs in
NetSuite, which are the costs incurred to produce one unit of a product. Therefore,
Folkways’ inventory values in ERP and NetSuite are not reliable.

According to staff job descriptions, Folkways senior management is responsible for
direct supervision of all aspects of financial operations including inventory
management. The Financial Management Accounting Policies and Procedures
Handbook, referenced in SD 301, assigns OC the responsibility to maintain the
official books and accounts of the Smithsonian, as well as to provide technical
supervision of activity accounting to assure the validity of accounts and reports.
The inventory inaccuracies are the result of several causes:



                                          6
SMITHSONIAN INSTITUTION                                      OFFICE OF THE INSPECTOR GENERAL


       Folkways accounts for finished products as separate components, such as
        compact discs (CD), printed material, and cases. However, Folkways is not
        accounting for all of the cost of goods sold expenses because it does not
        expense all of the products’ components when it sells inventory. For
        example, it did not properly expense promotional materials.

       During the course of our audit, Folkways could not support the unit costs for
        a test sample of products selected by OC. Folkways was unable to support
        unit costs because it did not properly include freight in the calculation. The
        lack of electronic integration between the distributor’s sale system and
        NetSuite also contributed to management’s difficulty when calculating unit
        costs. The lack of integration required Folkways staff to manually enter sales
        data from the distributor into NetSuite. However, Folkways had not
        consistently entered the sales data into NetSuite. This affected the product
        counts used to calculate the average cost of a unit.3 During the course of our
        audit, Folkways took steps to integrate data from the distributor into
        NetSuite.

       Folkways produces a report that projects the number of years it will take to
        sell CDs on hand, based on historical sales data. However, it lacks a written
        policy that defines aging thresholds used to write-off inventory. Folkways
        management stated it would be reasonable to have up to ten years of CDs on
        hand, but its most recent report projects that it would take more than ten
        years, and in some cases up to fifty years, to sell many of its CDs.

Without reliable inventory records, the potential effect is that Folkways may
misstate its profitability. Unreliable records increase the risk that Folkways will not
have accurate financial information necessary to make sound business decisions.
For example, unreliable profitability data has a potentially negative effect on
Folkways’ decisions regarding the number of new recordings to produce and staffing
decisions.

In addition, OC generates Folkways’ profit and loss statement from the data in ERP.
CFCH transfers a share of its profits, as outlined in the 2009 MOU, based on
Folkways’ profit and loss statement. Because this data is unreliable, the amount
transferred to the Central Trust Fund may not have been correct.

Smithsonian management informed us that they have suspended the MOU until
they can determine that the data captured in Folkways’ profit and loss statement is
reliable.

Accounts Receivable

Folkways needs to improve management of accounts receivable for mail order sales
to distributors and educational institutions. We found that Folkways’ accounts

3
 The average unit cost is obtained by dividing the total number of units produced by the production
cost.

                                                  7
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


receivable does not reconcile to ERP. In June 2011, OC reported an unexplained
accounts receivable variance of approximately $54,000 between NetSuite and ERP
accounting records. As of September 30, 2011, this variance had grown to
approximately $127,000. Neither Folkways nor OC have been able to resolve the
difference. Based on our review of the accounting records, we determined that the
balances in both the NetSuite subsidiary ledger and the ERP general ledger are
inaccurate. See Table 1.



      Table 1 - Variance Between ERP and NetSuite Accounts Receivable Balances


        $140,000 
                                                                $127,000 
                                                  $121,000 
        $120,000 
                                    $108,000 
        $100,000 

         $80,000 

         $60,000      $54,000

         $40,000 
                       Jun‐11        Jul‐11        Aug‐11        Sep‐11




We also found that the NetSuite accounts receivable aging summary report included
Folkways’ customers with credit or uncollectible balances. According to the NetSuite
report, as of January 2012, more than 30% of accounts receivable were 90 or more
days past due. Because the information in NetSuite is unreliable, we could not
confirm the accuracy of the aging summary report.

SD 301 Financial Management Accounting Policies and Procedures Handbook states
that Smithsonian unit directors are responsible for the effective management of
accounts receivable including reviewing outstanding accounts receivable balances
for uncollectible accounts.

In addition, CFCH has the primary responsibility to perform the monthly
reconciliation, or ensure the monthly reconciliation is performed in coordination
with its OC liaison. OC’s Financial Analysis and Reporting Division is responsible for
verifying that the monthly accounts receivable reconciliation is performed by the
appropriate party. The units are required to have written policies regarding how
they extend credit and procedures to conduct timely and systematic follow-up
collection efforts on unpaid accounts after 30 days.


                                              8
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


The accounts receivable inaccuracies are the result of several factors:

      Folkways staff acknowledged that the NetSuite subsidiary ledger had not
       always been updated to reflect payments received. The unit’s focus had been
       on providing accounts receivable payment information to OC to post to the
       official Smithsonian accounting records.

      Folkways staff submit cash receipts vouchers (CRV) to OC’s Cash
       Management Office to record payments. According to OC, CRVs have been
       prepared incorrectly, resulting in the Cash Management Office posting
       payments to the wrong accounts, including accounts that were reportedly
       closed. In recent months, an OC liaison accountant has been able to identify
       and bring some of the incorrect entries to Folkways’ attention.

      Folkways staff responsible for collecting payments may not have accurate
       information on delinquent accounts because accounts receivable data in the
       NetSuite subsidiary ledger is not reliable.

      Although Folkways has a policy covering accounts receivable collections in its
       Folkways Mail Order Manual, this policy does not include written instructions
       as to when Folkways should write-off uncollectible accounts. In addition, this
       policy has not been submitted to OC as required by Smithsonian policies.

Folkways provides documentation to OC to support the ERP accounts receivable
balance. Because the NetSuite subsidiary ledger is inaccurate, information
transferred to ERP is unreliable, and the potential effect is that ERP may misstate
Folkways’ profit and loss statement. As with its inventory records, Folkways may
erroneously make business decisions based on unreliable financial information.

Recommendations

We made the following recommendations to ensure that Folkways’ accounting
records reconcile to ERP and to provide management an accurate view of its
profitability.

To improve the accuracy of the inventory value and the ability of Folkways staff to
accurately account for it, we recommend that the Comptroller:

   1. Provide technical assistance to the Director of CFCH to determine the
      appropriate application of the average cost method used to value Folkways’
      inventory.




                                          9
SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL


To improve oversight of the Folkways inventory, we recommend that the Director of
CFCH:

   2. Develop and implement policies and procedures for the selected application
      of the inventory method. These policies and procedures should include aging
      thresholds used to write-off inventory. Ensure that staff receive proper
      training regarding the inventory method selected.

   3. Review and research current inventory documentation to identify actual
      account balances. If necessary, rebuild the accounts to accurately reflect
      assets.

   4. Revise staff performance plans to include requirements to ensure accuracy of
      prepared financial information.

To improve oversight of the Folkways accounts receivable, we recommend that the
Director of CFCH:

   5. Review and research NetSuite accounts receivable to identify the actual
      account balances. If necessary, rebuild the accounts to accurately reflect
      assets.

   6. Revise the Folkways Mail Order Manual to include policies that identify aging
      thresholds used to write-off accounts receivable. Submit the revised policy to
      OC, as required by the Smithsonian Financial Management Accounting
      Policies and Procedures Handbook.

   7. Direct Folkways staff to meet with OC personnel to improve the process for
      accurately preparing CRVs and other unit generated journal entries.

To ensure that appropriate amounts are being transferred to the Central Trust Fund
from Folkways, we recommend that the Under Secretary for History, Art, and
Culture and the Under Secretary for Finance and Administration:

   8. Suspend the Memorandum of Understanding, Treatment of Folkways Fund
      420 Unit Business Activity Year-End Assets until Folkways’ accounting records
      accurately reflect Folkways’ profitability as defined by the Comptroller.

Management has concurred with recommendations 1 through 8 and has planned or
taken corrective actions to address the recommendations. Further, management
provided support for completion of recommendations 7 and 8. For recommendation
7, we verified that CFCH management and OC personnel have addressed the
accurate preparation of CRVs and other journal entries. For recommendation 8, we
confirmed that management has suspended the Memorandum of Understanding
until Folkways accounting records accurately reflect financial profitability. We
believe that these actions meet the intent of recommendations 7 and 8. We will
close these recommendations effective the date of this report.


                                         10
SMITHSONIAN INSTITUTION                               OFFICE OF THE INSPECTOR GENERAL


Financial Management of the Festival Marketplace POS System Needs
Improvement

Folklife needs to improve management and oversight of the Festival’s POS system.
Folklife enters into agreements with vendors to provide products for the annual
Festival. Folklife records inventories, tracks sales, and creates vendor payable
invoices in the POS system. In 2011, Folklife paid approximately $225,000 to
Marketplace vendors for products on gross sales of approximately $418,000.
Folklife management reported that this payment included approximately $7,000 for
goods they determined to be lost or stolen.

We also found that when Folklife sold products to Smithsonian staff after the
Festival, there were poor controls over recording and receipt of proceeds. For
example, not all sales transactions were processed through the POS system and
Folklife staff could not account for some cash receipts.

According to Folklife management, to address these problems, they conducted the
2012 staff sale immediately following the Festival on the Mall grounds rather than
up to a month later. Folklife management made this change to ensure that proper
controls remained in place and the POS system remained operational for the
recording of those sales.

SD 310 states that management should establish control activities that are effective
and efficient. In addition, Folklife practices require staff at the Festival to load
inventory into the POS system prior to sale.

Poor controls over the financial management of the Festival Marketplace activities
were the result of the following:

      Folklife does not have written policies and procedures to record inventory in
       the POS system prior to sale. As a result, vendor invoices produced from the
       POS system did not accurately reflect items received. We determined that
       these vendor payments were based on inaccurate invoices. In addition,
       Folklife did not have written procedures to close out vendor accounts at the
       end of the Festival. Folklife staff also attributed incorrect vendor invoices to a
       lack of training and high turnover of temporary Festival staff.

      Folklife management had poor oversight of post-Festival staff sales made in
       August and September of 2011. During the audit, Folklife staff determined
       that approximately $240 of sales to Smithsonian staff were not recorded in
       the POS system. In addition, approximately $430 was recorded in the POS
       system, but was not supported by a cash receipt or input in ERP.




                                           11
SMITHSONIAN INSTITUTION                              OFFICE OF THE INSPECTOR GENERAL


Because of these internal control deficiencies, Folklife may not be maximizing the
financial performance of the Festival Marketplace. As a result of invoice records not
accurately reflecting products received, Folklife is unable to determine whether it is
reimbursing vendors for products that were lost or stolen, or paying for products
that it never received. In addition, Folklife’s lack of oversight of post-Festival sales
increases the risk that some sales will be improperly recorded or omitted.

Recommendations

To strengthen controls over the Festival POS system, we recommend that the
Director of CFCH:

   9. Formalize and implement procedures to document incoming inventory and
      ensure that all products are entered in the POS system prior to sale.

  10. Formalize and implement inventory close-out procedures for vendor
      accounts.

Management has concurred with recommendations 9 and 10 and has planned or
taken corrective actions to address the recommendations. For recommendation 9,
CFCH management developed new procedures for documenting incoming Festival
inventory. Based on this documentation, as well as the results of OC’s compliance
review of the 2012 Festival Marketplace operations, it appears that CFCH did not
fully implement these procedures. Therefore, this recommendation will remain open
until CFCH management fully implements the procedures.

Folklife did not Make Timely Cash Deposits of Sales from the Festival
Marketplace

During our review of the Festival Marketplace activities, we identified several
occurrences where Folklife staff did not make daily deposits of cash and checks
received from sales activity. In fact, Folklife staff waited up to 12 days to deposit
approximately $30,000, or 39 percent of total Marketplace cash and check sales.

SD 313 states that management should deposit cash daily to reduce the risk of loss
through theft or carelessness. However, Folklife staff stated that competing
priorities during the Festival prevented them from making daily deposits from
Marketplace activities. Therefore, they kept the deposits in a safe. Based on the
results of our audit, for the 2012 Festival, Folklife management stated that daily
cash and check deposits were made.

Both OC and Folklife developed Smithsonian Cash Handling Guidelines for
Concessionaires and Marketplace Operations, which requires the Marketplace Cash
Manager to prepare daily deposit bags, but does not require daily deposits.
However, OC updated the Smithsonian Guidelines for Concessionaires and
Marketplace Operations to include the requirement for daily cash deposits and
provided us a copy.


                                           12
SMITHSONIAN INSTITUTION                               OFFICE OF THE INSPECTOR GENERAL


Recommendations

To be consistent with SD 313, we recommend that the Comptroller:

  11. Revise Smithsonian Cash Handling Guidelines for Concessionaires and
      Marketplace Operations to include a requirement for daily cash deposits.

To mitigate the risk of loss of daily cash receipts, we recommend that the Director
of CFCH:

  12. Ensure that Festival staff make daily deposits in accordance with the revised
      guidelines.

Management concurred with recommendations 11 and 12. For recommendation 11,
OC has revised the Smithsonian Cash Handling Guidelines for Concessionaires and
Marketplace Operations to include a requirement for daily cash deposits. For
recommendation 12, CFCH management provided evidence of daily deposits during
the 2012 Festival. We believe that these actions meet the intent of our
recommendations and we will close them effective the date of this report.

CFCH Needs to Improve Management Over Financial Activities

CFCH’s key financial management staff are responsible for the majority of the
financial activities, often with little supervisory review. This lack of supervision has
led to poor segregation of duties with regards to file maintenance and cash
disbursement, preparation and review of journal entry, and records management.
SD 310 states that unit directors are responsible for delegating authority that is
consistent with standards for proper segregation of responsibilities.

We also determined that CFCH has not identified and trained alternate staff for key
financial activities when assigned staff are not present. For example, we learned of
an incident where a financial manager was on leave for several weeks and key
financial functions were not performed. Specifically, Folkways was unable to
reconcile mail order sales processed through a third party vendor. The Office of
Personnel Management has recommended cross-training as an opportunity to
prepare employees to perform key financial functions in the event of staff
shortages.

Inadequate segregation of duties and lack of cross-training were the result of
several factors:

      CFCH have limited staff assigned to financial operations. To compensate for
       limited staff, CFCH has assigned key management staff incompatible duties.
       For example, the Folklife financial manager has the ability to modify Festival
       payment information and is the only person authorized to disburse
       payments. In addition, the Folkways financial manager generates and
       approves CRVs with no oversight.


                                           13
SMITHSONIAN INSTITUTION                              OFFICE OF THE INSPECTOR GENERAL


      According to CFCH staff, management has provided limited opportunities to
       cross train the Folklife and Folkways staff. CFCH has limited written policies
       and procedures that would allow for work to continue when key financial
       managers are absent. For example, Folkways has assigned only one staff
       member to manage Record Maestro. This person is responsible for
       overseeing the input of royalty and licensing data into the royalty payment
       system; calculating royalty payments for artists and mechanical licensees;
       pursuing licenses for tracks on Folkways’ recordings; and researching artists
       that are due royalty payments.

We believe that the proper segregation of duties will help ensure the timely
detection of errors. In addition, the risk of lack of continuity of business increases
when employees are not cross-trained to perform key business operations.

Recommendations

To ensure the continuity of operations and appropriate segregation of duties, we
recommend that the Director of CFCH:

  13. Develop and implement additional written policies and procedures for key
      financial activities.

  14. Develop cross-training plans to address potential staff turnover and absence.
      This plan should include opportunities to cross-train staff to mitigate risks
      caused by resource constraints.

Management has concurred with recommendations 13 and 14 and has planned
corrective actions to address the recommendations.

CFCH is not Following Password and Payment Card Policies

During our review of CFCH’s accounting information systems, we determined that
CFCH was not following Smithsonian policies as outlined in SD 309 Payment Card
Handbook and SD 931. We found that CFCH employees were sharing one
administrator access user ID and password to access the POS system. This system
contains payment card information. In addition, CFCH’s unit designee had neither
attested to CFCH’s compliance with the Smithsonian’s payment card policy nor
attended the annual PCI training, as required by SD 309 Payment Card Handbook.
However, CFCH informed us that they sent representatives to the 2012 training.
CFCH systems process payment cards for merchandise. The major payment card
brands have developed Payment Card Industry (PCI) standards for merchants and
service providers to prevent payment card fraud. As a merchant, the Smithsonian
must follow the PCI standards or face fines. The Smithsonian developed SD 309
along with the accompanying Payment Card Handbook to establish standards for
accepting payment cards and securing information associated with payment card
transactions.




                                           14
SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL


To implement the procedures outlined in SD 309, the directive established the PCI
Working Group, co-chaired by senior managers from OCIO and OC, to coordinate SI
unit compliance activities. Along with other responsibilities, the PCI Working Group
provides updates on compliance to Smithsonian units that are accepting or are
considering accepting payment cards as a form of payment.

SD 309 outlines various responsibilities regarding PCI compliance for staff
throughout the Smithsonian. OCIO is responsible for educating the Smithsonian
community about data security responsibilities, as well as assisting units with
implementing data security standards, including any required procedures such as
vulnerability scans and periodic validation. Unit designees are responsible for
ensuring that all individuals who handle or process payment card data adhere to
the Smithsonian’s Payment Card Handbook and complete an annual attestation
statement indicating compliance with this directive and the Smithsonian’s Payment
Card Handbook.

In addition, the Smithsonian’s Payment Card Handbook states that every user must
use a unique user account and a personal secret password for access to
Smithsonian information systems and networks. SD 931 also prohibits system
administrators from establishing group accounts controlled by a single password.

Folklife staff shared one administrator user ID and password, which is the highest
level of access for the POS system. The staff believed that the risk of shared access
was minimal because those with administrator access generally were not processing
sales transactions. However, Folklife staff used the shared access to process post-
Festival sales.

In addition, the PCI Working Group had not conducted a PCI Assessment of CFCH’s
payment card systems since 2009, which could have brought this issue to OCIO’s
attention. OCIO takes a risk-based approach when assessing PCI compliance, which
generally focuses on larger units that accept the majority of the Smithsonian’s
payment card transactions.

The lack of unique user IDs and passwords prevents CFCH from having
accountability over the POS system. During the course of our audit, Folklife staff
confirmed a cash transaction that was processed by someone using the shared user
ID. CFCH could not determine who processed this transaction or if the proceeds
were deposited into the bank. In addition, the Smithsonian is at risk of reputational
harm should the integrity of customer payment card information be compromised.

Recommendations

To improve user access controls over all of CFCH’s payment card systems, we
recommend the Director of OCIO:

 15. Direct the PCI Working Group to assess CFCH’s compliance with SD 309.




                                         15
SMITHSONIAN INSTITUTION                          OFFICE OF THE INSPECTOR GENERAL


We also recommend that the Director of CFCH:

 16. Comply with SD 309 and implement corrective action for deficiencies
     identified in the PCI Working Group’s assessment.

 17. Ensure that the unit designee(s) attend the annual PCI training provided by
     OCIO.

Management concurred with recommendations 15 through 17 and has planned or
taken corrective actions to address the recommendations. For recommendation 17,
CFCH management provided evidence that the unit designee attended the annual
PCI training. We believe that this action meets the intent of the recommendation,
and we will close the recommendation effective the date of this report.




                                       16
SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL


APPENDIX A. SCOPE AND METHODOLOGY

The objectives of this audit were to assess whether CFCH’s accounting information
systems: (1) reconcile to the Smithsonian’s ERP system; (2) provide management
an accurate view of CFCH’s business activities; and (3) can be improved to increase
efficiencies.

To accomplish our objectives, we reviewed Smithsonian directives and guidance
pertinent to financial management, especially those for unit auxiliary activities. We
also reviewed previous audit reports involving CFCH to identify any issues that may
be relevant to the current audit objectives. Further, we examined best practices
from other organizations.

We evaluated the financial management controls and procedures at CFCH and
conducted walkthrough interviews with staff to identify procedural strengths and
weaknesses. We interviewed staff assigned to the Festival and Smithsonian
Folkways Recordings. We also interviewed staff from the Office of the Comptroller,
Office of the Chief Information Officer, Office of Protection Services, Office of the
General Counsel, and the Office of Planning, Management and Budget.

To accomplish our objectives, we tested CFCH system records and transactions to
identify internal control strengths and weaknesses.

Folklife Accounting Information Systems

We identified 585 individual participant records in the Participant Tracking System
for the 2011 Festival. To assess the accuracy of data maintained in this system, we
selected a sample of 20 participant records. We traced information entered into the
system to source documents and verified the accuracy of payments made to
Festival participants. Lastly, we traced payments to the Smithsonian’s official
accounting system.

We reviewed the POS system that Folklife uses to record Festival Marketplace sales
and determine vendor payments. We reviewed CFCH staff reports on Marketplace
sales and verified that proceeds from sales were properly recorded in the POS
system and ERP. We verified whether credit card transactions recorded in the POS
system reconciled to the credit card company settlement reports. We reviewed the
timeliness of daily bank deposits of cash and check sales. We selected a sample of
13 invoices which represented approximately 72% of the payments made to the
vendors and traced these vendor payments to ERP. Because we selected a
judgmental sample, we cannot project the results to the universe of vendor
payments.

We interviewed CFCH staff that use the Far Sight system as their auxiliary
accounting records. Because Far Sight is not used to approve or distribute funds,
capture sensitive personal information, reconcile financial activity to the
Smithsonian’s ERP, or record Folkways business activity we did not conduct testing
of the system.


                                            A-1
SMITHSONIAN INSTITUTION                          OFFICE OF THE INSPECTOR GENERAL


APPENDIX A. SCOPE AND METHODOLOGY (continued)

Folkways’ Accounting Information Systems

We interviewed personnel from Folkways and OC regarding their methods for
tracking and recording inventory and accounts receivable. We compared Folkways’
inventory accounting records to ERP as of September 30, 2011. Further, we
reviewed Folkways’ inventory projection report and the accounts receivable records
for mail order sales. Lastly, we analyzed monthly reconciliations prepared by OC
and accounts receivable aging summary reports from the NetSuite system.

We reconciled Folkways’ sales data to reports uploaded into the royalty payment
system. We traced the sales information to verify posting to the Smithsonian’s
official accounting system. In addition, we reviewed the Office of the General
Counsel’s guidance regarding Folkways’ royalties payable account. Lastly, we
evaluated the royalties payable balance.

To verify royalty payments to artists and mechanical licensees, we selected a
judgmental sample of 49 artist royalty payments and 10 mechanical licensee
payments made in the second half of 2011. These payments represented
approximately 75% of the total amount paid to artist royaltors and 93% of the total
amount paid to mechanical licensees. We reviewed supporting documentation to
determine whether payments were made in accordance with contractual
agreements and recorded sales. We also verified that there was a valid reason why
no payments were made for certain royaltor accounts. Because we selected a
judgmental sample, we cannot project the results to the universe of royalty
payments.

We conducted this performance audit in Washington, D.C., from September 2011
through June 2012, in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence we
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                           A-2
SMITHSONIAN INSTITUTION              OFFICE OF THE INSPECTOR GENERAL


APPENDIX B. MANAGEMENT’S RESPONSE




                               B-1
SMITHSONIAN INSTITUTION               OFFICE OF THE INSPECTOR GENERAL


APPENDIX B. MANAGEMENT’S RESPONSE (continued)




                                B-2
SMITHSONIAN INSTITUTION               OFFICE OF THE INSPECTOR GENERAL


APPENDIX B. MANAGEMENT’S RESPONSE (continued)




                                B-3
SMITHSONIAN INSTITUTION               OFFICE OF THE INSPECTOR GENERAL


APPENDIX B. MANAGEMENT’S RESPONSE (continued)




                                B-4
SMITHSONIAN INSTITUTION                                OFFICE OF THE INSPECTOR GENERAL

APPENDIX C. SCHEDULE FOR COMPLETION OF AUDIT RECOMMENDATIONS


  Rec                                                                Target
   #                     Recommendation                          Completion Date

  Finding #1: The Folkways Profit and Loss Statement is Not Reliable

   1.   Provide technical assistance to the Director of CFCH       10/31/2012
        to determine the appropriate application of the
        average cost method used to value Folkways’
        inventory.
   2.   Develop and implement policies and procedures for           9/30/2013
        the selected application of the inventory method.
        These policies and procedures should include aging
        thresholds used to write-off inventory. Ensure that
        staff receive proper training regarding the inventory
        method selected.
   3.   Review and research current inventory                       9/30/2013
        documentation to identify actual account balances.
        If necessary, rebuild the accounts to accurately
        reflect assets.
   4.   Revise staff performance plans to include                  11/30/2012
        requirements to ensure accuracy of prepared
        financial information.
   5.   Review and research NetSuite accounts receivable            9/30/2013
        to identify the actual account balances. If
        necessary, rebuild the accounts to accurately reflect
        assets.
   6.   Revise the Folkways Mail Order Manual to include           10/15/2012
        policies that identify aging thresholds used to write-
        off accounts receivable. Submit the revised policy
        to OC, as required by the Smithsonian Financial
        Management Accounting Policies and Procedures
        Handbook
   7.   Direct Folkways staff to meet with OC personnel to            Closed
        improve the process for accurately preparing CRVs
        and other unit generated journal entries.
   8.   Suspend the Memorandum of Understanding,                      Closed
        Treatment of Folkways Fund 420 Unit Business
        Activity Year-End Assets until Folkways’ accounting
        records accurately reflect Folkways’ profitability as
        defined by the Comptroller.

  Finding #2: Financial Management of the Festival Marketplace POS
  System Needs Improvement

   9.   Formalize and implement procedures to document              8/30/2013
        incoming inventory and ensure that all products are
        entered in the POS system prior to sale.
  10.   Formalize and implement inventory close-out                 8/30/2013
        procedures for vendor accounts.


                                            C-1
SMITHSONIAN INSTITUTION                                 OFFICE OF THE INSPECTOR

APPENDIX C. SCHEDULE FOR COMPLETION OF AUDIT RECOMMENDATIONS
            (continued)


  Rec                                                              Target
   #                   Recommendation                          Completion Date

  Finding #3: Folklife did not Make Timely Cash Deposits of Sales from
  the Festival Marketplace

  11.   Revise Smithsonian Cash Handling Guidelines for             Closed
        Concessionaires and Marketplace Operations to
        include a requirement for daily cash deposits.
  12.   Ensure that Festival staff make daily deposits in           Closed
        accordance with the revised guidelines.

  Finding #4: CFCH Needs to Improve Management Over Financial
  Activities

  13.   Develop and implement additional written policies          9/1/2013
        and procedures for key financial activities.
  14.   Develop cross-training plans to address potential          9/1/2013
        staff turnover and absence. This plan should
        include opportunities to cross-train staff to
        mitigate risks caused by resource constraints.

  Finding #5: CFCH is not Following Password and Payment Card
  Policies

  15.   Direct the PCI Working Group to assess CFCH’s             10/31/2012
        compliance with SD 309.
  16.   Comply with SD 309 and implement corrective               12/14/2012
        action for deficiencies identified in the PCI
        Working Group’s assessment.
  17.   Ensure that the unit designee(s) attend the                 Closed
        annual PCI training provided by OCIO.




                                           C-2
SMITHSONIAN INSTITUTION                          OFFICE OF THE INSPECTOR GENERAL

APPENDIX D. CONTRIBUTORS TO REPORT

The following individuals from the Smithsonian Office of the Inspector General
contributed to this report:

Joan Mockeridge, Supervisory Auditor
Kimm A. Richards, Senior Management Analyst
Joseph E. Benham, Auditor
Elsy Woodill, Auditor




                                        D-1
